<html>
<title> - HIGHLIGHTING VIETNAMESE GOVERNMENT HUMAN RIGHTS VIOLATIONS IN ADVANCE OF THE U.S.-VIETNAM DIALOGUE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                   HIGHLIGHTING VIETNAMESE GOVERNMENT
                 HUMAN RIGHTS VIOLATIONS IN ADVANCE OF
                       THE U.S.-VIETNAM DIALOGUE

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 11, 2013

                               __________

                           Serial No. 113-54

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
80-363                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d9bea9b699baacaaadb1bcb5a9f7bab6b4f7">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Anh ``Joseph'' Cao, former Member of Congress......     9
Mr. Vo Van Ai, president, Vietnam Committee on Human Rights and 
  Que Me: Action for Democracy in Vietnam........................    53
Ms. Anna Buonya, spokesperson, Montagnard Human Rights 
  Organization...................................................    60
Ms. Danh Bui, sister of a victim of human trafficking............    68
Mr. Tien Tran, victim of religious persecution at the Con Dau 
  Parish.........................................................    75
Mr. John Sifton, advocacy director for Asia, Human Rights Watch..    83

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Anh ``Joseph'' Cao: Prepared statement.............    12
Mr. Vo Van Ai: Prepared statement................................    55
Ms. Anna Buonya: Prepared statement..............................    63
Ms. Danh Bui: Prepared statement.................................    70
Mr. Tien Tran: Prepared statement................................    77
Mr. John Sifton: Prepared statement..............................    86

                                APPENDIX

Hearing notice...................................................   108
Hearing minutes..................................................   109
Ms. Anna Buonya: Material submitted for the record...............   110
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations: Statement of Boat People SOS and Hmong National 
  Development, Inc...............................................   112


                   HIGHLIGHTING VIETNAMESE GOVERNMENT
                   HUMAN RIGHTS VIOLATIONS IN ADVANCE
                      OF THE U.S.-VIETNAM DIALOGUE

                              ----------                              


                        THURSDAY, APRIL 11, 2013

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 10 o'clock 
a.m., in room 2172 Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The hearing will come to order, and I want to 
wish everybody a good morning, and thank you for joining us for 
this important hearing to examine the ongoing human rights 
situation in Vietnam. The Vietnamese Government continues to be 
an egregious violator of a broad array human rights. Our 
distinguished witnesses who are joining us here today including 
our former colleague Anh Cao, and many very distinguished 
people who have in many cases themselves suffered, and who will 
provide detailed accounts. And I'd like highlight just a few 
areas of grave concern.
    Despite the State Department's decision in 2006 to remove 
Vietnam from the list of Countries of Particular Concern, or 
CPC, as designated pursuant to the International Religious 
Freedom Act, Vietnam, in fact, continues to be among the worst 
violators of religious freedom in the world. According to the 
United States Commission for International Religious Freedom 
2012 annual report, ``The Government of Vietnam continues to 
control all religious communities, restrict and penalize 
independent religious practice severely, and represses 
individuals and groups viewed as challenging its authority.'' I 
agree with the Commission's conclusion that Vietnam should be 
designated a CPC.
    I met courageous religious leaders during my last trip to 
Vietnam who are struggling for fundamental human rights in 
their country. Unfortunately, many of them including Father Ly, 
and the most Venerable Thich Quang Do, remain wrongly detained 
today. There are disturbing reports that Father Ly is suffering 
poor health. Leaders of religious organizations are not only 
victimized by the Vietnamese Government, individuals in small 
communities are also targeted by their regime.
    One of our witnesses today, Mr. Tien Tran, will speak of 
the brutality that he experienced as a member of the Con Dau 
Parish that was violently repressed in 2010 when they tried to 
have a funeral procession. I will point out parenthetically 
that we held hearings then. And Congressman Cao will remember 
it so well because he did so help put those together, and we 
talked about the fact that the bullies actually rained upon 
people during a funeral and beat them, and told them that they 
could not continue with their funeral procession. And 
unfortunately, people died, people were incarcerated and 
torture was rampant.
    The State Department's upgrade of Vietnam from Tier II 
watch list to Tier II with respect to minimum standards for the 
elimination of human trafficking also needs to be critically 
examined. The Department's 2012 Trafficking in Persons Report 
states only that Vietnamese women and children are being 
sexually exploited, but there are severe labor abuses occurring 
as well with, not in the absence of, but with the government's 
complicity. The report acknowledges that state licensed labor 
export companies engage in fraud and charge illegal commissions 
for overseas employment, and that there are documented cases of 
recruitment companies ignoring pleas for help from workers in 
exploitative situations.
    I would note again that Dr. Thang has been instrumental in 
bringing huge amounts of evidence forward not only to 
committees and hearings that I have held and we have held in 
the past, but also to the Department of State, asking them to 
use that in bringing their conclusion to a Tier III ranking, 
because it is unmistakable that on this score card Vietnam 
deserves a Tier III ranking as well. As the sponsor of the 
Trafficking Victims Protection Act I am deeply disturbed that 
the tier rankings are not being better utilized by our State 
Department to pressure Vietnam to correct the trafficking 
abuses occurring within its government, not to mention those in 
the private sector.
    We will hear from Ms. Hui Danh who will testify about the 
ordeal that her sister has endured as a victim of human 
trafficking. I am deeply disturbed by her story because her 
sister's situation actually got worse when she asked for help 
from the Vietnamese Embassy. I greatly admire her courage, and 
the subcommittee is most appreciative of her willingness to 
speak out and to bring attention to this issue.
    Despite the dismal status for human rights in Vietnam we 
can exert pressure on the Vietnamese Government to cease these 
abuses. I will be introducing the Vietnam Human Rights Act very 
soon. We are in the final drafting stage of that legislation, 
and our hope is that swift congressional action on this bill 
will send a very strong message that Congress will not tolerate 
continuing human rights abuses in Vietnam. I will note 
parenthetically that this bill, in a different iteration, but 
very similarly crafted, has passed the House of Representatives 
with huge margins on two occasions only to die in the United 
States Senate because holds were put on it to block even a vote 
by the United States Senate.
    Finally, during the human rights dialogue with Vietnam in 
Hanoi, it is imperative that the U.S. Government send an 
unequivocal message to the Vietnamese regime that it must end 
its human rights abuses against its own citizens. This message, 
however, should not be confined to the human rights dialogue 
alone. It must be raised at each opportunity that we have with 
talks with the Vietnamese Government. It should be pervasive 
every time business, cultural or any exchange occurs. The 
ongoing plight of people like Father Ly, the evangelicals, the 
Montagnard, the Hmong, and The Venerable Thich Quang Do, and 
all the others who have been repressed, needs to be on the 
table. They need to know that we mean it, that we have not put 
this in a compartment, hermetically sealed from all other 
aspects of our bilateral relationship, that human rights 
matters to this country and matters to the American public.
    We are joined by our distinguished chairman of the full 
Foreign Affairs Committee, Mr. Royce of California who has been 
a champion of human rights in Vietnam, for however much time he 
may consume.
    Mr. Royce. Thank you. I want to thank Congressman and 
subcommittee Chairman Smith for that, and Karen Bass of 
California also, the ranking member here of this subcommittee. 
And let me begin by saying what a pleasure it is to see 
Representative Cao with us today, and not only to welcome him 
back but to say that his voice is sorely missed on the Hill 
here as one who spoke consistently for human rights, for 
religious freedom. And indeed that brings us to the subject 
today.
    The panel that is here has shown a very real dedication. A 
lot of expertise here in the subject of human rights. But I 
think it is absolutely dire today that our Department of State 
and we in the United States and the Congress, in the Senate and 
the House, manage to express to the Government of Vietnam that 
they are backsliding. Their walking in the wrong direction on 
religious freedom and freedom of expression is raising such a 
serious concern not only among the international community but 
I hear it from Vietnamese-Americans. And I saw it firsthand, I 
have to share with you.
    In a trip I took to Vietnam I had an opportunity to talk to 
some of the religious leaders including The Venerable Thich 
Quang Do. But I talked to several who were under house arrest. 
Now one of those was subsequently at one of these religious 
demonstrations and was beaten in such a way as he was 
permanently injured. And for those of you who follow these 
human rights cases, and follow particularly the case of 
religious leaders who refuse to bend to the party in Vietnam--
and why do they? Well, as explained to me, as shown to me, the 
Buddhist texts are rewritten by party functionaries so that 
they are a small fraction of the original text, but the 
meaning, the meaning of the text has been changed.
    And so when the government itself says, well, we have our 
own new appointed Buddhist leader that we are going to 
recognize, that's because that individual is willing to bend 
and change the faith. And the question that I have is that when 
we took Vietnam off of the Country of Particular Concern list 
the deal was that the government in Vietnam was going to 
recognize religious freedom. Now that means a cessation. That 
means ending the process of beating religious leaders who try 
to speak out for freedom of religion. That means ending the 
process of seizing church property. That means allowing, 
allowing all faiths to practice.
    And I am looking at the 2013 report of the Human Rights 
Watch, looking down through that. The conclusion is Vietnam 
suppresses nearly every human right from freedom of expression, 
freedom of association, religious freedom. And I think that as 
we look at the excessive use of force not just against 
religious leaders but also young kids that want to use the 
Internet in order to gain access to information, to see the 
sentencing for those that are involved in any kind of dialogue 
about freedom of expression, and see them locked away for these 
long periods of time, to see the functionaries of the 
government beating people with electric batons to break up 
protests over any issue including environmental issue, and this 
has remained the same for many years, but frankly it is getting 
worse.
    Vietnam, over the first 6 weeks of this year, the 
Government of Vietnam have convicted in show trials 40 
dissidents. Now that means in just less than 2 months the 
Communist government there has already eclipsed the entire 
total of last year. That is why these witnesses came here today 
to speak out, is because things are regressing in Vietnam. And 
despite this behavior, Vietnam is actively pursuing a seat at 
the U.N. Human Rights Council. The words have no meaning. And 
in terms of the trafficking issue, which Chris Smith has been 
involved in for so many years, to hear the individual stories, 
to hear the complicity of the government, the Government of 
Vietnam doesn't want these stories to surface about what is 
actually happening to these traffic victims. And that indeed is 
why if you complain to the government you might find yourself 
in worse shape than if you just suffer through. And the 
government makes money in so many cases off of the abuse of 
workers, but for the trafficking victims it is really hell. 
Their life is a life that no one would ever want to go through. 
We have got to have the U.S. Government stand up for moral 
principle here.
    Now the State Department is heading over to Vietnam for the 
next round of talks in the U.S.-Vietnam Human Rights Dialogue. 
And during those talks I hope that these cases that we discuss 
today, I hope that our Government here in the United States 
makes it absolutely clear, if Vietnam is serious about pursuing 
a stronger relation with the United States, well, that is 
contingent on it starting with one thing for certain, and that 
is, the human rights situation has got to be improved in terms 
of religious freedom, in terms of these traffic victims, and in 
terms of freedom of expression for these young people in 
Vietnam who want to simply have a dialogue. We can't have these 
show trials. We can't have this kind of abuse. We can't have 
these beatings. It must end. It must end now. And I commend the 
chairman for holding this hearing, and I yield back.
    Mr. Smith. I want to thank the distinguished chairman of 
the full committee, Mr. Royce, for his longstanding and very 
effective leadership on behalf of the suffering people in 
Vietnam and for his very eloquent statement this morning.
    Ms. Bass, ranking member.
    Ms. Bass. Thank you, Chairman Smith, as well as Chairman 
Royce, for your years of work on human rights. And I am glad 
today that we are joined by my good colleague from California, 
Congressman Alan Lowenthal. I want to offer my gratitude today 
to today's witnesses for your testimony, and I look forward to 
your insights and perspectives.
    As we turn to another country and set of human rights 
issues that greatly require congressional and global attention, 
it is my hope that this hearing will lead to improved 
conditions for the Vietnamese people, where freedom of speech, 
the end of religious persecution, freedom of the press, any 
free press, are permitted to thrive in a society that is open 
and truly free.
    Tomorrow the U.S. and Vietnam will hold the 17th of its 
human rights dialogues, where there might be some advances--and 
I am sure today's witnesses will confirm that or not--in the 
government's crackdown on various freedoms. This is by no means 
widespread. Organizations such as Human Rights Watch, Amnesty 
International, and the Vietnam Human Rights Network continue to 
document the full extent of the government's efforts to 
undermine the human rights of its citizens at every turn. The 
upcoming meeting between our two governments presents no better 
time than the present to raise the seriousness of these 
concerns and abuses, particularly as the Vietnamese Government 
seeks a seat on the U.N. Human Rights Council for 2014 to '16.
    I would like to make very brief remarks on the freedom of 
speech, human trafficking, and religious persecution. Freedom 
of expression is fundamental in a society that thrives. Last 
year the Vietnamese Government arrested activists, bloggers, 
and human rights lawyers detaining them for extended periods of 
time, denied them access to legal counsel, prevented them from 
contacting their families, and prosecuted them in politically 
charged trials. Those convicted and sentenced merely sought a 
society in which their fellow citizens criticized their 
government to improve society and ensure policies do not exist 
where people live in fear or are under the threat of censor or 
arrest.
    I am particularly concerned about the trafficking of women, 
men, and children around the region, and hopefully the 
witnesses today will give us additional information about that. 
It is my understanding that both women and men are forced into 
sexual labor. Women are sold as mail-order brides or surrogate 
mothers. Men are often sold into indentured servitude. And the 
most vulnerable citizens, children, are exploited for the 
purposes of sex, labor, forced begging, or bonded labor. 
According to the State Department's 2012 Trafficking in Persons 
Report, the Vietnamese Government has made some efforts to curb 
trafficking, but more must be done to combat sexual slavery and 
the illegal transfer of children to Cambodia, China and 
elsewhere.
    I am also troubled by the persecution of religious 
minorities across Vietnam. Government seizure of lands, 
particularly those belonging to religious or other minority 
groups, the resale of lands belonging to churches and temples, 
and the infiltration of religious organizations by government 
agents demonstrate contempt for religious freedom. People 
should be able to practice their beliefs without fear of 
punishment or persecution by government officials.
    I want to conclude by reminding all of us and all our 
governments the important words that enshrined within the 
Universal Declaration of Human Rights. These words provide us a 
framework and serve as a guide to ensure that all people are 
free, live in open and just societies, and their governments, 
including our own, work with and for people rather than 
against. Everyone is entitled to all the rights and freedoms 
set forth in this declaration without distinction of any kind 
such as race, color, sex, language, religion, political or 
other opinion, national or social origin, property, birth, or 
other status. Furthermore, no distinction shall be made on the 
basis of the political, jurisdictional, or international status 
of the country or territory to which a person belongs whether 
it be independent, trust, non-self-governing or any other 
limitation of sovereignty. Everyone has the right to liberty, 
life, and security of person. No one shall be held in slavery 
or servitude. Slavery and the slave trade shall be prohibited 
in all these forms. No one shall be subjected to arbitrary 
arrest, detention or exile.
    Today I look forward to your testimony, and I yield back my 
time.
    Mr. Smith. Thank you. Thank you very much, Ms. Bass. I 
would like to yield to Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman. And thank you for 
coming to testify. And as we listen to your testimony, one of 
the things, the clearest message that needs to be taken back 
that needs to be heard by the Government of Vietnam is that to 
truly have economic prosperity and economic freedom there first 
and must always be the protection of religious liberties and 
with human rights to make sure that those are protected and 
upheld in every situation. We are here in a country that many 
times for economic reasons we look the other way. And that 
cannot be the case and will not be the case. We would not 
tolerate this kind of human rights violations among companies 
here, and to be a good trading partner with the United States 
we must stand and be vigilant on this particular issue, and it 
is nonnegotiable.
    And to highlight this, I appreciate the bravery and the 
true sense of trying to expose and share in an intimate way the 
atrocities that are happening not just in Vietnam but across 
many countries, but specifically with what you have had to deal 
with. I look forward to hearing your testimony, and truly may 
it be the start of highlighting this over and over again so 
that real change, not just words but actions follow up those 
words. So thank you so much. I yield back, Mr. Chairman.
    Mr. Smith. Thank you very much, Mr. Meadows. The chair 
recognizes Mr. Lowenthal.
    Mr. Lowenthal. Thank you, Chairman Smith, Chairman Royce, 
Ranking Member Bass, for the opportunity to participate in 
today's hearing on the human rights conditions in Vietnam. I 
would like to also thank the members of the panel for coming to 
testify today.
    This hearing is very important to me because of the large 
numbers of Vietnamese-Americans that I proudly represent, 
particularly in Little Saigon, one of the largest 
concentrations of Vietnamese outside of Vietnam. Since the 
normalization of diplomatic ties between Vietnam and the United 
States, Vietnam has gained tremendously from these economic 
ties and exchanges. In partnering with the United States, 
Vietnam was admitted into the World Trade Organization, 
received permanent normal trade status with our country, and it 
has gained access to the American markets. Currently, the 
United States is one of Vietnam's largest, if not its largest 
exporting partner.
    But despite these partnerships, the Government of Vietnam 
has yet to demonstrate its commitment to upholding 
international laws and norms such as the Universal Declaration 
of Human Rights, and the International Covenant on Civil and 
Political Rights, which Vietnam is a signator. Vietnam has 
disregarded its promises on respecting human rights and basic 
freedom of the press, expression and association of its own 
citizens as is already enshrined in the Vietnamese 
Constitution.
    Currently as we speak today, respected religious leaders 
such as the Supreme Patriarch Thich Quang Do of the Unified 
Buddhist Church of Vietnam, and Father Nguyen Van Ly, along 
with many activists are under house arrest. According to 
reports as just reported also, by, I think, Chairman Royce, at 
least 50 human rights defenders have been arbitrarily detained 
within the last year alone, and that rate is increasing 
exponentially.
    The persecution of prominent bloggers such as Ta Phong Tan 
who received the State Department's 2013 Woman of Courage 
Award; journalists such as Phan Thanh Hai and Dieu Cay who 
founded the Free Journalist Club; songwriters such Viet Khang 
and Tran Vu Anh Binh; the 14 Catholic youth activists; and most 
recently human rights lawyer, Le Quoc Quan, all of these 
persecutions have resulted in the Government of Vietnam being 
strongly criticized and condemned by international rights 
organizations and by governments around the world. The United 
Nations Working Group on Arbitrary Detention has ruled that 
these arrests and detentions are a violation of international 
law.
    Mr. Chairman, as the Government of Vietnam is seeking 
Trans-Pacific Partnership agreements along with increasing 
economic and military exchanges with the United States, my hope 
is that the United States Congress carefully examines the 
seriousness and the commitment on the part of the Government of 
Vietnam to respecting human rights and basic freedoms of its 
citizens given these current conditions in Vietnam.
    I recently attended an event in my district where thousands 
of Vietnamese-Americans came together to support the call from 
religious leaders, from intellectuals, from former Communist 
Party officials, and from activists in Vietnam, demanding 
constitutional changes and for the Vietnamese Government to 
grant greater freedom to its people. I believe that the United 
States should use our diplomatic relations to try to influence 
and do everything that we can to support the people of Vietnam 
in their aspirations for justice, for liberty, and for freedom. 
Thank you, Mr. Chair, and I yield back.
    Mr. Smith. Mr. Lowenthal, thank you very much for your 
statement and for your leadership and for being here today and 
joining us on the panel.
    I would like to now introduce our distinguished witnesses. 
And beginning first, it is expressing the highest honor and 
privilege to welcome back Anh Cao, who is a good friend and a 
tremendous human rights leader. He was born in Vietnam, and at 
the age of eight he was able to escape to the United States 
with his siblings. After learning English, he did well in 
school and went on to earn his undergraduate and master's 
degrees before teaching philosophy and ethics in New Orleans. 
Congressman Cao went on to earn his law degree and worked for 
Boat People SOS--and I first met him in the 1990s--to help poor 
Vietnamese and other minorities.
    He lost his home and office in Hurricane Katrina, but 
helped lead his community as it started to rebuild. In 2008 he 
became the first Vietnamese-American elected to the U.S. House 
of Representatives, and represented Louisiana's Second 
Congressional District, and as I said at the outset was a 
leader on numerous human rights issues, but was the leader on 
trying to protect the rights of people living in Vietnam. So it 
is a privilege to have him here.
    We will then hear from Mr. Vo Van Ai who serves as the 
international spokesman for the United Buddhist Church of 
Vietnam which is currently banned by the Communist dictatorship 
in Vietnam. He is also the founder and president of Que Me: 
Action for Democracy in Vietnam, and the Vietnam Committee on 
Human Rights, organizations established in 1976 to raise 
awareness of the human rights and religious freedom situation 
in Vietnam, the campaign for the release of prisoners of 
conscience, and promote democratic freedoms and human rights. 
He testifies regularly at the United Nations Human Rights 
Council, the U.S. Congress, European Parliament, and other 
international fora on human rights in Vietnam. Welcome.
    We will then hear from Ms. Anna Buonya who was born in 
Thailand and came to the United States as a Montagnard refugee 
in 1986. She graduated from UNC Greensboro in 2006 with a 
degree in political science and communication studies, and 
received her law degree from Elon University in 2010. She has 
her own law practice, and outside of her private practice she 
does pro bono advocacy on behalf of refugee policy for the 
Montagnard Human Rights Organization and the Council of 
Indigenous Peoples in Today's Vietnam.
    We will then hear from Ms. Hui Danh, a Vietnamese-American 
who lives in the United States. Her sister is a victim of a 
forced labor scheme in which she went to Russia thinking that 
she would work in a restaurant, only to find out when she 
arrived that she would be forced and compelled to work as a 
prostitute. Her sister was eventually able to return to 
Vietnam, but there are many others who remain trapped in Russia 
as well as elsewhere by their Vietnamese traffickers. We 
welcome her and thank her for her enormous bravery knowing that 
there has been retaliations because she has spoken out.
    We will then hear from Tien Tran who is a member of the Con 
Dau village in Central Vietnam where he was a farmer and a 
member of the local Catholic church. He was captured by 
Vietnamese security forces during a funeral at Con Dau on May 
4th, 2010. He was jailed and tortured for 7 days in a police 
detention center. He was able to escape Vietnam and go to 
Thailand in August 2010, and then came to the U.S. in September 
2012. We welcome him and express obviously our deep sadness as 
to how he was mistreated, but again thank him for speaking out 
for all those who remain and have been so victimized.
    We will then hear from Mr. John Sifton who is the advocacy 
director for Asia for Human Rights Watch where he focuses on 
South and Southeast Asia. He has extensive experience doing 
international human rights work with a focus on Asia, but has 
also worked on issues relating to human trafficking, terrorism, 
and refugees. Mr. Sifton has traveled to Vietnam where he 
investigated the human rights situation and other developments 
in the country. He works with a wide range of government 
officials from many countries to provide policy advice and 
raise awareness of Vietnam's human rights record. And welcome, 
Mr. Sifton, as well.
    I would just note we also have Dr. Thang here today, and 
just one note concerning him. In the 1990s when I became 
chairman of the subcommittee focusing on human rights, it was 
Dr. Thang who came to my office and said, here is some 
information regarding the human rights situation especially 
with regards to the refugees who are in a number of camps 
including in High Island in Hong Kong, and elsewhere, who are 
about to be forcibly repatriated back to Vietnam where they 
were facing a predictably cruel fate and would have been, many 
of them, put into prison. We organized, as a direct result of 
Dr. Thang's advocacy--and Anh will remember this as well--a 
series of four hearings including one closed hearing.
    The Clinton administration was intent on sending back those 
men and women who had been screened out as refugees, 
improperly, even though human rights organizations had made it 
very clear that they were refugees, that they had a well-
founded fear of persecution should they be forcibly or in any 
way returned back to Vietnam. After the four hearings, I 
offered an amendment again with the guidance of Dr. Thang that 
said no U.S. money will be used to forcibly repatriate anyone. 
It caused a change in the attitude on the part of the 
administration. We had some friends within the administration 
as Dr. Thang will remember, and as a direct result the ROVR 
program was established. And, frankly, I want to thank Dr. 
Thang because he is the man, the person, the human rights 
advocate, and his organization Boat People SOS, but he 
personally, who made the difference in ensuring that upwards of 
20,000 people who would have gone back against their will were 
rescued. And he has been absolutely tenacious in promoting the 
cause of human rights for all faiths, all believers, all those 
who are suffering any kind of persecution in Vietnam, including 
those who have been trafficked. So Dr. Thang, thank you for 
your unbelievably effective leadership on behalf of the 
Vietnamese people.
    Anh Joseph Cao?

STATEMENT OF THE HONORABLE ANH ``JOSEPH'' CAO, FORMER MEMBER OF 
                            CONGRESS

    Mr. Cao. Chairman Smith, I would like to personally thank 
you and to thank Chairman Royce for you continuing to be the 
champion of human rights and religious freedom in Vietnam. I 
would like to also thank the ranking member Bass and members of 
the subcommittee for your interest in the human rights and 
religious freedom conditions in Vietnam, and for your 
willingness to support the fight of the Vietnamese people.
    Mr. Chairman, basic universal human rights have served as 
the basis and foundation of modern societies over six decades. 
The United Nations Declaration of Human Rights succinctly and 
rightly states, ``All human beings are born equal in dignity 
and rights.'' ``Everyone has the right to life, liberty, and 
security of person.'' ``No one shall be subjected to torture or 
to cruel, inhumane or degrading treatment or punishment.'' 
``All are equal before the law and are entitled without any 
indiscrimination to equal protection of the law.'' Pope John 
Paul II called this Declaration ``one of the highest 
expressions of the human conscience of our time.'' Marcello 
Spatafora, on behalf of the European Union, stated, ``The 
declaration placed human rights at the center of the framework 
of principles and obligations shaping relations between the 
international community.'' Yet, the Socialist Republic of 
Vietnam has for decades defiantly trampled these important 
principles under its feet, proclaiming to the world arrogantly 
that it is above what are right and decent.
    Since 2007, Vietnam has been backsliding on human rights 
and is now the proud possessor of the title ``The Worst 
Violator of Human Rights in Southeast Asia.'' Political 
opposition is outlawed; repression of dissidents intensified; 
severe restrictions on freedom of expressions are imposed; 
bloggers and peaceful activists are arrested, imprisoned, and 
tortured. In most cases, national security has been cited as a 
pretext for the illegal arrests and criminal investigations.
    One of the main groups of people who have suffered greatly 
under Vietnam's oppression has been the religious faithful and 
leaders. Vietnam does not hide its strict adherence to the 
Communist assertion that ``religion is the opium of the 
people,'' and they therefore will take any measure, no matter 
how despicable, to suppress this basic freedom. To defend 
itself, Vietnam points to its Constitution that explicitly 
recognizes religious freedom, but like the Universal 
Declaration of Human Rights, Vietnam's Government officials and 
cronies trample on the country's Constitution replacing it with 
a policy of intimidation, repression and torture.
    The case of Con Dau Parish succinctly displays Vietnam's 
contempt for the rule of law. In May 2010, the Da Nang City 
People's Committee ordered all households of the all-Catholic 
Con Dau Parish to sell their residential housing to a private 
developer, the Sun Group, for a price that was much lower than 
market price. As the parishioners rejected the deal both 
because of the low price and because they wanted to preserve 
their 135-year-old way of life, the government used force 
causing multiple injuries and several deaths. Scores of 
parishioners were arrested, detained and tortured. The case of 
Con Dau clearly illustrates Vietnam's intention of wiping out a 
religious community through the expropriation of farmland, 
cemetery plots, and residential homes of all parishioners.
    On May 4, 2010, the authorities even prohibited the burial 
of a 93-year-old parishioner in the parish cemetery. As 
parishioners proceeded with the funeral, the police attacked 
them brutally causing injuries to over a hundred parishioners 
including the elderly and children. The police arrested 62 
parishioners and tortured them for days during detention. The 
Communist militia caught one parishioner who attempted to 
escape and tortured him to death. Seven of the parishioners 
identified by the government as taking the lead in the 
opposition to the blanket expropriation of the entire Con Dau 
Parish were tried and sentenced to prison terms.
    Other cases of recent arrests and torture are compiled 
under Exhibit A, which I would like to submit with this 
testimony for the subcommittee's review and consideration. I 
would like also to submit the statement of Reverend Nguyen Van 
Khai, under Exhibit B, which succinctly explains Vietnam's 
position on religious freedom.
    When I was growing up in Vietnam the children playfully 
called the Communist regime ``The Red Devil.'' After seeing the 
actions and the atrocities committed by the Vietnamese 
Government against religion, I realized how truthful this 
statement was. The drafters of the U.N.'s Universal Declaration 
of Human Rights sufficiently appreciated the danger within a 
society when the basic freedoms of individuals are not 
recognized and defended. In the preamble the drafters stated, 
``Disregard and contempt for human rights have resulted in 
barbarous acts which have outraged the conscience of mankind.'' 
This disregard and contempt for human rights have led to the 
Holocaust under the Nazi regime, the Cultural Revolution under 
Stalin and Mao, and the Killing Fields under Pol Pot when 
countless millions were tortured and killed for their beliefs.
    Recently in Vietnam, the Catholic bishops and leaders of 
other religious faiths demanded changes to Vietnam's 
Constitution. These changes include power and land must belong 
to the people. The U.S. Congress must stand in solidarity with 
these religious leaders. I ask that this Congress will 
introduce and pass the Vietnam Human Rights Act of Chairman 
Smith and the Vietnam Sanctions Act of Chairman Ed Royce. We 
are America and we understand that these rights and freedoms 
are of the greatest importance for human flourishing in the 
modern world. Thank you, Mr. Chairman, for the opportunity to 
testify.
    [The prepared statement of Mr. Cao follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you very much, Congressman Cao.
    Mr. Ai?

  STATEMENT OF MR. VO VAN AI, PRESIDENT, VIETNAM COMMITTEE ON 
    HUMAN RIGHTS AND QUE ME: ACTION FOR DEMOCRACY IN VIETNAM

    Mr. Ai. Honorable Chairman, distinguished Members of 
Congress, I will make short remark and submit the full text of 
my testimony for the record.
    Mr. Smith. Without objection, your full statement and those 
of all of our distinguished witnesses, and any materials you 
want added to the record will be made part of the record.
    Mr. Ai. Thank you. Thank you for inviting me to testify on 
behalf of the Unified Buddhist Church of Vietnam, UBCV, the 
largest and oldest religious community in Vietnam. I appreciate 
the chance to speak before the dialogue, for I am concerned 
that the State Department does not realize the gravity of 
Vietnam's repression of the UBCV. Buddhist leader Thich Quang 
Do expressed the same concern to Ambassador David Shear who 
visit him in Saigon. He said, ``The State Department report of 
abuses portray but a pale picture of the systematic police 
pressure, harassment and intimidation faced by Buddhists in 
every aspect of daily life.'' I realize that that Vietnam 
deceptive religious policy with their mixture of a certain and 
sheer brutality are not easy to understand, but I appeal to 
Congress and the State Department to look behind Hanoi's mask 
to see the reality of religious repression against Buddhists 
and other religious community and to raise this loud and clear 
in the coming dialogue in Hanoi.
    For the past three decade, the Communist hierarchy have 
systematically targeted the UBCV, detaining and harassing 
Buddhist monks and nuns. Religious gathering and festival such 
as the Buddha birthday are routinely disbanded by police. 
Foreign visitor are assaulted, follower are threatened with 
losing their jobs or having their children expelled from school 
if they worship in UBCV pagoda. The aim is to create a climate 
of fear in which no one dare live their faith.
    Just last week, security agent threw rotten fish and 
excrement into the home of Buddhist blogger Huynh Ngoc Tuan. He 
has spent 10 years in prison for his article calling for human 
rights. In March, Buddhist youth leader Le Cong Cau was 
interrogated by security police in Hue for 3 days, and 
threatened him with a 20-year prison sentence simply for 
demanding the legalization of the UBCV. Le Cong Cau is head of 
the Buddhist Youth Movement, an unofficial educational movement 
which has over 500,000 members in Vietnam. During the 
interrogation, police told him that Vietnam would never accept 
to legalize the UBCV.
    Monk, nuns, and followers of over 20 provincial boards are 
prevented from carrying out charitable activity. In August, 
Venerable Thich Thanh Quang, in Da Nang, was brutally beaten 
under the eye of police who made no attempt to intervene. The 
most tragic victim is the UBCV leader and Nobel Peace Prize 
nominee Thich Quang Do. Despite over 30 years in detention he 
refuses to be silent. During the recent debate on reforming the 
Constitution, Thich Quang Do urged the Communist Party to 
embark on ``a path of peace and multi-party democracy to lead 
our people into stability, development and happiness.''
    Alongside political violence, Vietnam also uses the law to 
curb religious freedom. In January, Decree 92 came into effect 
which submits religious to tighter control. Ordinance 44 
authorizes the detention of religious dissidents under house 
arrest, in labor camps or psychiatric hospital without any due 
process of law.
    Mr. Chairman, the human rights dialogue is only relevant if 
it leads to concrete progress. The United States should set 
benchmarks and a time frame for improvement and ensure that 
Vietnam does not use the human rights dialogue as a shield to 
deflect international scrutiny from its grave abuses of 
religious freedom and human right. At the coming dialogue, I 
urge the U.S. to press Vietnam to release all religious 
prisoners, particularly UBCV Patriarch Thich Quang Do, and 
reestablish the Unified Buddhist Church of Vietnam legal 
status. Bring religious legislation into line with Article 18 
of the U.N. Bill of Rights. Fix a date of the visit by the U.N. 
Special Rapporteur on Freedom of Religion or Belief to which 
Vietnam has agreed.
    Finally, regarding U.S. policy, I urge the U.S. to 
redesignate Vietnam as a Country of Particular Concern; to 
mandate the Ambassador-at-Large on International Religious 
Freedom to visit Vietnam and meet with a wide range of 
stakeholders, including religious dissidents, and to consult 
widely with civil society before the trip; to adopt the Vietnam 
Human Rights Act in order to link trade relation to the respect 
of religious freedom and human right. In view of its abysmal 
human rights record, the U.S. should not support Vietnam's 
membership of the U.N. Human Rights Council which will be voted 
at the General Assembly in New York in September this year. 
Thank you, Mr. Chairman.
    [The prepared statement of Mr. Ai follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Mr. Ai, thank you very much for your testimony 
and your very concrete recommendations to the committee and to 
the President and to the U.S. Congress at large. I would like 
to now ask Ms. Anna Buonya if she would proceed.

 STATEMENT OF MS. ANNA BUONYA, SPOKESPERSON, MONTAGNARD HUMAN 
                      RIGHTS ORGANIZATION

    Ms. Buonya. Thank you, Mr. Chairman Smith and other 
distinguished members and guests for the honor and the 
opportunity to be here to speak with everyone today. Again, my 
name is Anna Ksor Buonya, and I am here on behalf of the 
Montagnard Human Rights Organization, and we are based from 
Raleigh, North Carolina. I am also here to represent the 
Montagnard Indigenous Peoples of the Central Highlands of 
Vietnam.
    As some of you may know, the Montagnards were strong and 
loyal allies with the U.S. Government during the Vietnam War, 
and because of that after the fall of South Vietnam we have 
been subjected to cruel and unusual punishment. Since then 
Montagnards' political and religious leaders have been tortured 
and imprisoned. Our population has been forced for relocations 
and thousands have been condemned to live in some of the 
country's poorest cropland. Also our ancestral lands are being 
deforested for logging and being used as rubber plantations. My 
statement today will focus primarily on religious persecution 
and human rights violations that confront the Montagnard, the 
Hmong, and other persecuted indigenous peoples of Vietnam.
    In 2011 and 2012, Human Rights Watch has published detailed 
reports on the continuing religious persecution of Montagnards 
in the Central Highlands and the extreme persecution of the 
Hmong Christians in the Northern Highlands. During 2011, entire 
Hmong villages have been destroyed by the Vietnamese 
Government. Also, in May 2011, Hmong Protestants gathered 
peacefully to ask for an end to religious persecution and the 
confiscation of their homes and lands. The Vietnamese 
Government responded with violence and the attacks resulted in 
multiple deaths and countless injuries.
    Also, August 21st, 2012, there had been reports that 
Montagnard Catholics were in the midst of prayer when they 
raided by the Vietnamese police. In November 2012 Vietnam 
police carried out a sweeping operation of about 1,000 soldiers 
searching for Montagnard Catholics. They found six people. 
These men were severely beaten. One man was tied to a cross 
while the others had their hands and feet tied and were 
surrounding him. The police then rounded up the villagers and 
threatened them with the same punishment if they continued to 
carry out their religious beliefs.
    I also have some pictures that I want to include in the 
record. This is of a Hmong deacon who was tortured to death at 
the police station on March 17th, 2013. This is a Hmong 
Christian. He participated in the May 2011 protest that I had 
stated earlier. He escaped the police crackdown but he was 
later found out and when he tried to escape he was shot down by 
the police.
    The religious persecution I just highlighted above also 
relates to numerous arrests regarding religious leaders. The 
Vietnam Government is directly responsible for the cruel and 
terrible treatment of Montagnard Christians and other political 
prisoners. The Vietnam Government continues to arrest, torture 
and jail Montagnard Christians. There are currently over 400 
Montagnard Christians imprisoned for their religious beliefs, 
some of them up to 16 years. Between 2001 and 2004, over 400 
Montagnard house churches were taken over by the Vietnamese 
Government, hundreds of Montagnards were arrested and 
imprisoned for their participation in demonstrations which 
related to the policy of land confiscation and religious 
rights. To this day, many of these house churches still remain 
closed, and practically all these Montagnard prisoners are 
still in prison.
    They are also often forced to renounce their faith. They 
are beaten, and many put in prison for many years without 
adequate water, food, medicine and family visits. May suffer 
solitary confinement and torture. These conditions have not 
improved. Two main areas that continue to experience problems 
are Pleiku and Buon Ma Thuot. Many of the issues I just 
described also leads to the Montagnards seeking asylum in 
Cambodia or Thailand. This in itself is another problem. 
Montagnards asylum seekers have no place to find sanctuary. 
There are hundreds of Montagnards who are hiding and they are 
trying to flee persecution. They are hunted down by the police. 
They are beaten and put in jail. There are no safe haven for 
them. When they escape to Thailand they are also facing 
rejection by the UNHCR, and they are later arrested and put in 
immigration detention. The Hmong who flee to Thailand, most of 
them because of the May 2011 protests, are also experiencing 
similar problems. Right now there are approximately 300 known 
cases which have been reported to the Hmong National 
Development organization. Dozens of applications for refugee 
status have been filed with the UNHCR, and to date every single 
application has been denied.
    There is another recent case that I want to highlight. 
Again at this very moment there are two Montagnard individuals 
who are hiding in the Central Highlands. They were 
participating in protests, and because of that they experienced 
persecution and physical beatings by the Vietnam police. For 
the last year they have struggled to obtain an interview with 
the U.S. consulate. Finally, after a year of waiting they went 
through three separate interviews, the whole time still 
continued to stay in hiding, and just recently within the last 
week they were told by the International Organization for 
Migration that they now need a passport from the Vietnam 
Government or their refugee application will be abandoned. And 
of course, with the fear of persecution this would be a 
problem. Everything I have just stated is only a very brief, 
general overview of the types of religious persecution and 
human rights violations that Montagnards and other indigenous 
people face.
    We do have some requests. In the latest USCIRF Annual 
Report for 2012, the Commission again recommended that Vietnam 
be returned to the list of Countries of Particular Concern. We 
agree with this recommendation, and we urge the U.S. Congress 
and the U.S. Government that the release of all Montagnard 
prisoners be negotiated for and their release obtained before 
any more U.S. Government defense and trade treaties with 
Vietnam go forward. Also in light of the United Nations' 
Declaration on the Rights of Indigenous People, which the U.S. 
administration and President Obama recently endorsed on 
December 2010, we also recommend that the U.S. Government 
continues its dialogue with Vietnam to recognize the 
Montagnard, Khmer Krom, and Cham as its indigenous people. 
Vietnam has shown support of the United Nations Declaration, 
and we urge the U.S. Congress to put pressure on Vietnam to 
implement the principles of this declaration especially since 
religious persecution is being experienced by all of the 
indigenous groups. Also we hope that the U.S. State Department 
will consider reopening its refugee program within Vietnam by 
acknowledging that there continues to be claims of well-founded 
persecution there.
    Again, Mr. Chairman, it has been my privilege to come here 
today, and I hope the U.S. Government takes what I have said 
into consideration during future dialogue with Vietnam. Thank 
you.
    [The prepared statement of Ms. Buonya follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Ms. Buonya, thank you very much for your 
testimony, your very specific recommendations as well, and we 
will follow up on each and every one of them. Thank you so very 
much.
    Ms. Buonya. Thank you.
    Mr. Smith. I would like to now ask Ms. Danh if she would 
testify.

    STATEMENT OF MS. DANH BUI, SISTER OF A VICTIM OF HUMAN 
                          TRAFFICKING

    [The following testimony was delivered through an 
interpreter.]
    Ms. Danh. Members of the committee, my name is Danh Hui. I 
live and work in Houston, Texas. Thank you for the opportunity 
to be here to speak at this hearing. The purpose of my being 
here today is to call on the U.S. Government to help with the 
rescue of 15 victims, Vietnamese victims, who have been sex-
trafficked to Russia. My own little sister, Huynh Thi Be Huong 
is one among those 15. My sister Huong was the first one to be 
released and returned to Vietnam. Then gradually six other 
victims were also released and allowed to return to Vietnam. 
However, there are still eight victims being held captive in 
Russia. I truly hope that after this hearing, the committee, 
the Congress, and the government will help raise the voice so 
that the remaining eight victims will be eventually rescued and 
allowed to go home and be reunited with their families in 
Vietnam, and also assure that the trafficker, the brothel's 
owner, would be prosecuted before the law so that she won't be 
able to harm other victims anymore.
    Over a year ago, my sister Huong was promised employment in 
a restaurant in Russia. However, as soon as she landed in 
Russia her passport was confiscated and she was taken into a 
brothel owned and run by a Vietnamese woman. She was forced to 
serve sex clients immediately on that day. My sister Huong and 
the other victims were beaten regularly and they were not 
allowed to communicate with their family in Vietnam. Last July, 
the owner of the brothel, the trafficker, called me demanding 
$2,000, U.S., as ransom as a condition for the release of my 
little sister. Being so poor I had to borrow the money to pay 
her. However, she raised the ransom to $4,000 and then to 
$6,000. I realized immediately that she never had the intention 
to release my sister but only wanted to extort my family of our 
little resources.
    On February 2nd of this year, my sister Huong and three 
other victims managed to escape. They called home and also they 
called the Vietnamese Embassy in Russia to ask for help. Very 
soon afterwards, all four of them were recaptured by the 
traffickers and they were beaten and tortured every day. Then 
BPSOS, Boat People SOS, helped us, and mobilized the 
involvement the media, the U.S. media. And also there was 
Congressman Al Green who spoke out, and also thanks to the 
State Department, my sister Huong and six other victims were 
released and were allowed to return to Vietnam.
    Once home, Huong then informed us that the brothel's owner 
had very close relationship with people at the Vietnamese 
Embassy. Her boyfriend's, that is, the owner's boyfriend's 
older brother worked at the Embassy, the Vietnamese Embassy in 
Russia, and then that older brother is married to the niece of 
a very high ranking official at the Vietnamese Embassy as well. 
Currently, my sister Huong is in very dangerous situation. She 
doesn't dare to go home to her hometown to work, but she has to 
stay in hiding in Saigon, because the trafficker had already 
threatened to send her subordinates to Vietnam to harm her and 
the other victims. They would not allow them to stay in peace 
in Vietnam. Huong is the very one that the trafficker had 
pointed out to her subordinates to track down and harm by all 
means and cost.
    Huong, right now, and the other victims who have returned 
to Vietnam really need help and also protection. And also there 
are eight others who are still in Russia, they need to be 
rescued. I would like to present to the committee and submit to 
the committee the list of the victims here, the list of 
victims, and also the pictures of some of the victims. And here 
is my little sister Huong. Just think of them as your own 
daughters.
    On behalf of all these victims I would like to thank you, 
distinguished members of the committee, especially Congressman 
Al Green and the Boat People SOS organization. Please accept my 
deep gratitude. Thank you.
    [The prepared statement of Ms. Danh follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you for that extraordinarily moving story 
and the call to action on the part of our committee to do more 
on behalf of your sister who is in hiding but all the other 
eight who remain victimized in Russia. So thank you so much.
    I would like to now call on Mr. Tran.

STATEMENT OF MR. TIEN TRAN, VICTIM OF RELIGIOUS PERSECUTION AT 
                       THE CON DAU PARISH

    [The following testimony was delivered through an 
interpreter.]
    Mr. Tran. Distinguished members of the committee, my name 
is Tien Thanh Tran, a parishioner of Con Dau village in Da 
Nang, Vietnam. I deeply thank the U.S. Government, the Members 
of Congress, and the congressional staffers who are here today. 
The fact that you have raised your voice bought me the freedom. 
I feel that it is my duty, my responsibility to be here to 
present at the U.S. Congress about the violation of human 
rights in my parish Con Dau where I was a victim myself.
    Since June 2008, the City of Da Nang's government had 
already ordered the wipeout, the total wipeout of my parish, 
Con Dau, the relocation of all 2,000 parishioners and also the 
displacement of 1,600 graves at the cemetery of our parish so 
that they could build and develop an eco-tourism project. This 
order violated Vietnam's own law on land. The reason for that, 
the purpose for the order to confiscate the land of our parish 
was to serve the interests of a privately owned development 
company and not for any public interest.
    On the 4th of May 2010, the government of Da Nang City sent 
in hundreds of troops, police, to stop a funeral procession and 
broke up the procession of the burial of one of the 
parishioners. Over a hundred parishioners, including the 
elderly, the seniors, women, children, were brutally beaten by 
the police. Sixty-two of us were taken to the police station 
where we were tortured for over a week, including myself. Seven 
of the parishioners were sentenced to prison terms. Parishioner 
Nguyen Thanh Nam, over there, the picture was over there, was 
tortured until death.
    At the police station in Cam Le I was called in for 
interrogation repeatedly, continually. There was one police 
officer who read out all the crimes I had to admit to have 
committed. If I didn't say what they wanted me to say, 
immediately two police officers standing by my sides beat me up 
using whatever they got a hold of such as the chair, the baton, 
wooden sticks. My face was all bloody. I fell down to the 
ground. They lifted me up and continued to beat me until I pass 
out, then they pour water over my face and then continue the 
interrogation. After 7 days of torture, I was released on the 
condition that I must report to the police the other 
parishioners that were involved in the funeral. And I had to 
report to the police station every 3 days. When I went to see a 
doctor for my examination about my injuries suffered during 
detention, all these doctors refused to treat me when they 
found out I came from Con Dau.
    More than 90 parishioners had to leave Vietnam and seek 
protection, refuge protection in Thailand. I am one of the 34 
who have arrived in the U.S. since, as a refugee. A few weeks 
after my arrival in the U.S. I had a medical exam and the 
doctor told me that my eardrums had been punctured and also I 
had a hole in my eye caused by the very severe impact during 
the torture session. And here is the medical record.
    Right now over a hundred families are still left in Con Dau 
Parish. They are digging in, but they are very worried because 
there is a new order for them to vacate the parish. Two days 
ago the police approached a family and then destroyed their 
home using bulldozers. And just last night the tent that they 
set up on their land just to stay overnight was taken away and 
they were transported away, I don't know where. This policy of 
confiscating properties in Con Dau actually violates the 
interests of many U.S. citizens who used to be Con Dau 
residents, parishioners. They still hold title to their 
properties in Con Dau or they inherited the property from their 
deceased parents, and some of them are here today at this 
hearing.
    I eagerly appeal to you, Members of U.S. Congress, to 
request that the Vietnamese Government immediately stop their 
intention to eliminate our parish in Con Dau, to immediately 
stop the brutality, the torture and the violence committed by 
the police, and also to immediately stop the confiscation of 
the property of U.S. citizens. Once more I want to thank you 
for giving me the opportunity to speak on behalf of my fellow 
parishioners as a free man in a free country. Thank you, and 
God Bless America.
    [The prepared statement of Mr. Tran follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Mr. Tran, thank you for bearing witness to a 
very ugly truth that you suffered yourself, but also on behalf 
of those who remain in Vietnam who are suffering to this day. 
And your testimony and the other testimonies again underscores 
what Congressman Cao said so eloquently, that Vietnam is the 
worst violator of human rights in Southeast Asia. And that fact 
has to emerge right now especially during that dialogue, and 
our U.S. relationship vis-a-vis Vietnam must be predicated on a 
full understanding of that fact.
    Mr. Sifton?

STATEMENT OF MR. JOHN SIFTON, ADVOCACY DIRECTOR FOR ASIA, HUMAN 
                          RIGHTS WATCH

    Mr. Sifton. Thank you. First let me thank the committee as 
the other witnesses have for inviting me to testify. The 
committee is definitely to be commended for its efforts, 
repeated efforts, to draw the world's attention to Vietnam's 
rights record. Unfortunately I must confirm many of the reports 
today that that record has not improved. Since this 
subcommittee had a hearing on Vietnam last year, the rights 
situation has, in fact, worsened. The numbers are clear and 
numbers can't lie so there is really no doubt about it. The 
simple fact is that a growing number of dissidents including 
religious leaders and bloggers and politically active people 
are being convicted and sent to jail for violations of 
Vietnam's authoritarian penal code which prohibits any kind of 
public criticism of the government or the Communist Party.
    By our count, which I believe Representative Royce cited 
earlier, which is a conservative count based on available 
information, it may be an under count, shows that the trend 
lines are very, very clear. At least 40 people were convicted 
in political trials last year. That was an increase from 2011, 
which was an increase from 2010. And then again, just in the 
first 6 weeks of this year another 40 people were convicted. 
The entire total for 2012 was matched in the first 6 weeks of 
2013.
    These trials have themselves led to other arrests, arrests 
which have not yet led to new convictions but probably will. 
During protests at some of the hearings, some of these trials, 
other activists are detained for protesting, and some of those 
arrested have been reporting beatings and even sexual assault. 
One blogger who wrote a terrible account of being detained 
temporarily after a well-known trial in late 2012. She was 
beaten. She was forced to undergo a cavity search in front of 
other police officers, a sheer humiliation of the grossest 
form.
    And there has also been an official campaign in recent 
months to suppress critical comments about a process currently 
underway to amend Vietnam's Constitution, and this appears to 
have been a factor in the arrest on December 27th of last year 
of the lawyer Le Quoc Quan, and in the harassment this year of 
several other critics. I should mention that Senators McCain 
and Kelly Ayotte and Sheldon Whitehouse, and Joseph Lieberman 
met with Le Quoc Quan in 2010, and I hope that they will write 
to the Prime Minister to raise their concerns now, and I think 
they will very soon.
    Thuggish harassment also seems to be on the rise with 
street violence by unidentified thugs who are probably 
government agents. As Mr. Ai noted, just this week, Monday 
night, I believe, some men through a bucket of rotten rice 
water and fish heads and fish intestines, a disgusting foul 
mix, through the window of the writer Huynh Ngoc Tuan who I 
should note is the 2012 recipient of Human Rights Watch's 
Hellman/Hammett grant for writers who have been victims of 
political persecution.
    And later in the week, this week, April 8th and April 9th, 
mere days ago, the bloggers Bui Thi Minh Hang and Nguyen Chi 
Duc were attacked by thugs on the streets of Hanoi. There were 
police nearby. They didn't do anything to intervene. And it 
affirms the common sense hypothesis that these unknown 
attackers, these thugs, are in reality just government actors, 
either paid goons or, in fact, police who are out of uniform. A 
picture of Nguyen Chi Duc has been circulating widely on 
Vietnamese language sites in the last 24 hours and it show, the 
bruises on his face from the beating, it looks to have been 
taken within minutes of the beating, for there is dried blood 
on his cheek. And I suspect, I am not medically trained, but I 
suspect it was taken minutes after his attack because there 
isn't even any swelling. He probably looks worse today than he 
did when that photograph was taken.
    While the trend lines show this worsening situation, it 
should be noted that none of this really new. I mean Vietnam 
has unjustly imprisoned political prisoners for decades, and 
several of its current political prisoners have been in 
detention for decades. And in some instances these prisoners 
have been denied proper medical care for their deteriorating 
health conditions. So one suggestion we have made to the 
Vietnamese Government is that even if they disagree with the 
human rights groups, even if they disagree with the U.S. 
Government about reversing their crackdowns and repealing their 
draconian laws, they at least agree that the very elderly and 
the very sick prisoners need not suffer in detention and that 
whatever the merits of their supposed crimes, they don't pose a 
threat to the government, the party or the people of Vietnam 
and so they should be released.
    And that is a message I think everybody, including the 
State Department, in the dialogue will take as a kind of 
confidence building measure, at least that could be done.
    There are of course many other human rights issues to 
discuss with respect to Vietnam religious freedom which has 
already been discussed, administrative detention and forced 
labor for drug users and alleged drug users and alleged sex 
workers. There is a lot of Internet blocking and filtering 
going on. Several dozen Web sites being blocked on Vietnam's 
ISPs including Radio Free Asia and Voice of America, Vietnamese 
service. Each of these issues is discussed in our World Report 
2013 chapter which I have included with my testimony, written 
version.
    I will also submit a recent statement from Human Rights 
Watch that we made 24 hours ago on the occasion of the U.S.-
Vietnam Human Rights Dialogue. As that statement makes clear, 
the focus really needs now to be on the Vietnamese Government. 
I think this is something that we and everyone in the U.S. 
Government agrees, both the State Department and the White 
House and this subcommittee, the spotlight really belongs on 
Vietnam itself to give some kind of sign that it will address 
these issues and not ignore them. And in this context it is 
important that everyone stand together, everyone in the U.S. 
Government, and explain to them that the relationship, which 
has improved as just a basic matter of fact over the last few 
years, will not continue to improve unless Vietnam's Government 
undertakes serious reforms to address the human rights problems 
we have spoken about today.
    A few of the avenues that the U.S. Government can use are 
not just this dialogue but the regular legislation that moves 
through this House and through the Senate on appropriations. I 
mean, I believe in addition to the legislation that is underway 
for Vietnam in particular, the appropriations bill itself can 
do its part and send a message. Restrictions on the IMET 
military-to-military assistance, FMF, which is very small but 
it does exist, could be strengthened. Language could be 
included to instruct the Secretary of the Treasury to use his 
voice and power on international financial institutions such as 
the Asian Development Bank to start being tougher on asking 
questions of Vietnam about what they are doing. I think if 
Japan and the United States together were to start asking 
questions on those international financial institutions and 
also just in general that would make a big difference.
    And then lastly, at the Human Rights Council this year 
Vietnam will go before Geneva for its Universal Periodic Review 
along with Cambodia, just a coincidence but Cambodia is up as 
well. It is very important that the State Department really not 
only criticize Vietnam in that forum but marshal the diplomatic 
power to convince other countries to do so, especially 
countries like Japan and Australia, and that goes for Cambodia 
as well although that is not the subject of this hearing today. 
On the other issues, levers that can be discussed, the trade 
agreements, the U.S. Trade Representative in his role, and the 
Pentagon, but we can discuss that in the questions if you wish. 
I would be happy to take questions from the committee on these 
issues. Thank you.
    [The prepared statement of Mr. Sifton follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you very much, Mr. Sifton, for your 
testimony and for very concrete recommendations to the 
committee, to the White House, to State, and to Congress at 
large as to how we should proceed. I do hope your organization 
and you will look at our Vietnam Human Rights Act again, 
because we do have a very strong provision dealing with using 
our voice and vote at the Human Rights Council.
    And I think your point about marshaling other countries to 
join us is good, as Congressman Cao pointed out so well, this 
is the worst violator of human rights, and maybe there are 
others that are equal to, but in Southeast Asia. And again, the 
Human Rights Council has not distinguished itself as to 
membership. There are rogue nations that sit in good standing 
on it, and I think that brings nothing but dishonor to the 
process. And we need the Human Rights Council to be as faithful 
to promoting human rights, and who sits on it makes all the 
difference in the world. So excellent point by you.
    Let me just ask if I could, Ms. Danh, if I could begin with 
you. With regards to your sister who is in hiding in Saigon, 
you mentioned, next week, I will begin the process this week, 
but I will ask to meet with the Ambassador of Vietnam to 
specifically raise the issues raised by this panel, but to ask 
that your sister be protected, that the trafficker as you 
pointed out is in pursuit of her. She is in hiding. And a 
country that is a Tier II country, which Vietnam is, and that 
means that our Government has suggested that they have taken 
action to meet the minimum standards prescribed in the 
Trafficking Victims Protection Act, it would be unconscionable 
for the government, once apprised of this situation, especially 
officially, to then look away and look askance and allow your 
sister to be further victimized.
    And I would say, you mentioned that the Russians on March 
5th mounted a raid to rescue the victims, 14 of them at the 
time. However, 2 hours before the raid a phone call from the 
Vietnamese Embassy in Moscow tipped off Madam Thuy An. She 
immediately moved the victims to another location. The Russian 
police only found an empty apartment. I have recently met, we 
have met, several of us, with the Russian Ambassador to talk 
about adoptions and human trafficking. I will convey to him our 
gratitude that the Russian police did mount such an effort to 
liberate these Vietnamese women and to ask that additional 
actions be taken to provide protection for them.
    Ms. Bass. Will the gentleman yield?
    Mr. Smith. I will yield.
    Ms. Bass. I would, first of all, like to join you----
    Mr. Smith. Yes.
    Ms. Bass [continuing]. In that meeting.
    Mr. Smith. Oh, good.
    Ms. Bass. But also I believe that Ms. Danh mentioned that 
there were eight other women, and I think that we should pursue 
them as well.
    Mr. Smith. Yes, exactly. And that is what we will do with 
the Russians as well as with the Vietnamese Ambassador. Why is 
it that it is okay for a government to allow its women to be 
raped, exploited and abused in another country? Where is the 
national interest that Vietnamese young women are being so 
cruelly exploited? They ought to be leaving no stone unturned 
to protect them. But when, as you said, there are people from 
the Embassy itself exploiting these women that probably tells 
the story. So we will follow up on that with the Ambassador, 
and I hope he sees clear to meet with myself and Ms. Bass and 
Mr. Meadows and others who might want to join us for that 
meeting.
    Let me ask you just a few other questions. If you want to 
respond please do, but Mr. Tran, thank you again for your 
testimony and for reminding us of the ongoing cruelty that has 
been committed against the parishioners and that you, yourself, 
have suffered so. If you and perhaps others could speak to the 
UNHCR. I have raised with High Commissioner Guterres on several 
occasions the unavailability of UNHCR personnel to assist 
Montagnard and others who seek protection and are given 
obstacles that are just insurmountable--where is your passport? 
They have a well-founded fear of persecution. They are being 
persecuted and yet they are left to drift. I am a great fan of 
the UNHCR. I have been to refugee camps all over the world. 
They are good people, but they have not stepped up to the 
plate, in my opinion, to meet their obligations here. So if you 
could maybe speak to the UNHCR problem.
    And again we will ask, this committee will ask that High 
Commissioner for Refugees, Guterres, appear before the 
committee. We have jurisdiction over the U.N. in this committee 
as well. And as we have done in the past, he will come in an 
official briefing because U.N. personnel are not allowed to 
testify in an official hearing, but frankly it is a distinction 
without a difference. He will sit here and we will ask very 
courteous, but very real, questions of him. So if you could 
elaborate, if you will, on the UNHCR problems that you have 
encountered.
    Ms. Buonya. I am not exactly sure why all these cases have 
been denied. I just have heard from other people, for example, 
that some of the officers are cutting people off during 
questioning. I know with the Montagnard situation it may be a 
translation problem also. A lot of Montagnards don't speak 
fluent Vietnamese, which that could also be an issue. I have 
also heard from someone who works with Hmong National 
Development, for example, these victims will have scars on 
their bodies and they won't even get a chance to show the 
evidence of the torture, of the beatings, of their persecution.
    And also with the problem of the passports, this is after 
people have been in hiding, for this recent case, I mean it has 
been over a year, and then to finally go through the whole 
process the whole time being in hiding, and then at the end of 
the line they are saying, we need a passport, which they don't 
have and in which they have to go get from the Vietnamese 
police. I mean how do you ask people who are already in fear to 
then go get a passport from the Vietnamese police? So I am not 
exactly sure what the right solution would be, but I just know 
right now the mechanisms in place are not working.
    Mr. Thang. Yes, if I may. We have lawyers in Bangkok right 
now. We have a legal team in Bangkok to help about 900 
Vietnamese asylum seekers. And there are some systemic issues. 
One is that the UNHCR doesn't allow any legal representation, 
so these asylum seekers go into the interview and they don't 
know how to articulate their claims and they are not allowed to 
have anyone to come with them. And second, it looks like there 
is a policy of not allowing Montagnard and Hmong to be even 
registered for an interview with the UNHCR. Also they don't 
want to see more Montagnard. It is an implicit policy they 
don't see any Montagnard.
    I would like to bring to your attention that at least right 
now there are four cases, three Montagnard and one Khmer Krom, 
who have been denied refugee status by the UNHCR. They have 
been told that they could return to Vietnam in safety, and they 
did return to Vietnam and they were captured and tortured and 
imprisoned. And they are trying to go to Vietnam to visit them 
but they were denied access. And four of them made it out of 
Vietnam and they are now in Thailand.
    Mr. Smith. Okay. If you could, Dr. Thang, provide 
additional information for the record that would be very 
helpful.
    Mr. Thang. Yes, thank you.
    Mr. Smith. Just let me point out to my colleagues and to 
our witnesses, we have had hearings on North Korea, and I have 
also met with High Commissioner Guterres on North Korean women 
who are trafficked into China, once they made it across the 
border thinking they had escaped to relative freedom, and then 
were trafficked and sexually abused. The Chinese Government 
sends them back sometimes, and when they send them back they go 
to prison. They are tortured. Some of them are executed. And we 
heard from witnesses tell firsthand knowledge of that 
happening. It is a gross violation, sending someone back when 
you have basic information that they will be so hurt. And China 
has signed the Convention Relating to the Status of Refugees. 
They are in violation of it and the UNHCR and others have 
failed to take action. So the importance of these agencies is 
to take action when it is profoundly inconvenient because they 
are all about protection, and that is what we will at least 
admonish the High Commissioner to do with regards to these 
individuals.
    Let me ask you finally, Mr. Tran, and then I will go to 
some of the others, after my colleagues. What has been the 
response of the U.S. Department of State, as well as the U.S. 
Trade Representative, to what has happened to your parish and 
the abuse that has been visited upon the parishioners including 
yourself?
    Mr. Tran. No, I have not heard anything from the State 
Department or other agencies from the U.S. Government about 
intervention and help for the parish.
    Mr. Cao. Mr. Chairman, if I may.
    Mr. Smith. Yes.
    Mr. Cao. Yes, even when I was in the U.S. House, I brought 
up the issue directly with the Department of State and also 
through the U.S. Embassy in Vietnam. And I was received with 
somewhat of a lukewarm answer that they are looking into the 
problem, they are looking into the issue, but nothing was done. 
No utterances from the Department of State to condemn the 
actions of the Vietnamese Government in that parish of Con Dau, 
along with the other locations, as well as other religious 
groups that were being persecuted by the Vietnamese Government. 
And this has traditionally been, I guess, the practice of the 
Department of State to deal with these many issues with a blind 
eye or simply to utter rhetoric without taking any action 
whatsoever.
    And in my own opinion, if we continue to act in this way 
then we are simply in complicit with these despicable acts 
because we are supporting a government to stay in power, a 
government that continues to persecute its people, a government 
that continues to torture religious leaders, a government that 
continues to make false arrests and to detain citizens without 
the due process of law. And again I would urge you, Mr. 
Chairman, along with members of the subcommittee, to bring this 
very issue to the State Department to ask them to take action, 
to ask them to sit down with us and other members of the 
community who are knowledgeable about the Vietnamese 
Government, who are knowledgeable about the Vietnamese culture, 
to consult with us on how to dialogue with the Vietnamese 
Government. That is all we ask.
    Mr. Smith. Thank you.
    Mr. Ai, if you could tell us, in your testimony you 
mentioned Ordinance 44 which authorizes detention of dissidents 
in labor camps and psychiatric prison. Is Ordinance 44 being 
used today?
    Mr. Cao. Vietnam use Ordinance 44 along with other colorful 
ordinances, and again because they do not abide by the rule of 
law it is difficult for us to even comprehend what basis they 
are using to arrest dissidents as well as individuals who speak 
out against the government. And then if we were to look at 
their actions in Con Dau along with other parishes, even though 
when I spoke with the Department of State with the U.S. Embassy 
in Vietnam, again at that time it was Ambassador Michael 
Michalak who was in Hanoi. His response was that these are just 
simply land disputes. They are simply land disputes between 
individuals.
    And again this is just a simple excuse for them to overlook 
the question, to overlook the problem, and to proceed on with 
possibly economic conversations are what you have between 
Vietnam and the U.S. Government. Vietnam's intention, Vietnam's 
intention in taking land from religious institutions, in taking 
land from religious communities, their intention is to suppress 
religious freedom. That is their intention. And these disputes 
are not simply property disputes between land owners or what 
have you.
    Mr. Smith. Thank you.
    Mr. Ai, did you want to answer that please?
    Mr. Ai. Yes, I would like to talk something about the 
Ordinance of 44. Many people forget that in Vietnam there are 
not only the prison as such but the Ordinance 44, all popular 
home that would just become a prison, like is the case of Thich 
Quang Do. He is now in his own pagoda as a prison. And 
Ordinance 44 can arrest or send the people under house arrest, 
for all the policeman in the town, in the countryside, they can 
do that and they don't need to deal with any due process law. 
And more than that they can send people into labor camp or 
psychiatric hospital. It is like in the Soviet Union. It is 
horrible. And now there are three blogger are arrested under 
the Ordinance 44 and sent to the psychiatric, the hospital, 
psychiatric one.
    And especially the case of Thich Quang Do. Thich Quang Do 
do not be treated before the process of law. And they hear that 
policeman say that you are now under arrest and house arrest. 
And since 10 year he is now a prisoner under house arrest. So I 
think that many time we ask in the council in Geneva, Human 
Rights Council, to abolish the Ordinance 44, but until now they 
didn't do anything for the Ordinance 44. So I would like to ask 
you to press Vietnam in order to abolish the Ordinance 44.
    Mr. Smith. Thank you, Mr. Ai.
    Mr. Ai. Thank you.
    Mr. Smith. When I did meet with The Venerable Thich Quang 
Do in his pagoda I will never forget how impressed I was, and I 
know others who have met with him, with his incredible peace 
and a sense of strength and resolve. But he told me that if he 
walked out the door with me it would be a matter of seconds 
that security apparatus personnel and secret police would swarm 
and push him back and hit him right back into the pagoda. That 
is how ubiquitous the secret police is.
    Ms. Bass?
    Ms. Bass. Thank you. Once again, thank you all for your 
testimony today. And in particular I want to express my 
gratitude to your willingness to share what I know are very 
painful stories, situations and memories of abuse. I just have 
a couple of questions, because I wasn't sure I understood what 
was the important thing to happen. For example, I know the U.S. 
is getting ready to have this dialogue. It seems as though I 
heard two different opinions as to whether or not you feel the 
dialogues are useful and are important. I believe I heard, and 
it might have been from Mr. Ai that he said that he felt that 
the dialogues could be used as a shield.
    So I don't know. If there is a difference of opinion that 
is fine. I just wanted to understand what you thought about the 
dialogue with the U.S. Should they be stopped? Should they 
continue?
    Mr. Ai. No, I think that we must have a dialogue. I agree 
with having to dialogue in order to talk and to change. As I 
talked in my remark, the human right dialogue is only relevant 
if it leads to concrete progress. But I saw since a many year 
the human right dialogue between Vietnam and United States, 
between Vietnam and Australia, and between Vietnam and many 
country in Europe that didn't conduct to any change on human 
right in Vietnam. I think that Vietnam has a two-track 
political. One track for international. That mean they show for 
every people that Vietnam respect human right, respect 
democracy, and sometime like the secretary general of the 
Communist Party would say that the democracy in Vietnam is a 
thousand more democracy in the Western country. It is a 
democracy of one party. It is 1,000 times more than you know 
democracy in the Western country?
    And so for the international they use the dialogue of human 
rights as a shield to say that yes, the fact that they dialogue 
with United States prove that they respect human rights. But 
too many year to this dialogue between United States and 
Vietnam, what can change in Vietnam? No, everything is the 
same. And they try, and the two-track policy as I say, the 
policy inside of Vietnam is to repress people, an oppression of 
religion, the bloggers, the netizen and so on. Many netizen and 
blogger, they try to aspire about the human right, about the 
democracy and even that they are accused for 20 years under 
prison, like the case of Khai Thuy as we have heard last time.
    So I think that of course we need the human right dialogue 
but we hope that United States set a benchmark and a time frame 
for improvement, resolve that Vietnam change on the human 
right.
    Ms. Bass. I also wanted to ask in terms of the religious 
prosecution, is it of all religions or is a particular religion 
singled out, religion perhaps that Chairman Royce was talking 
about? Is religion just an excuse for political persecution?
    Mr. Cao. Again, Ranking Member Bass, the Communist 
Government of Vietnam persecutes all religion across the board, 
and more particularly they target those groups of people that 
do not have a voice, the Montagnards, the other minorities, 
other groups in Vietnam. But there has been some progress made 
on the issue of religious freedom in Vietnam recently when many 
of the religious leaders demanding changes to the Vietnamese 
Constitution, asking that power belong to the people, asking 
that land belong to the people and not to the government.
    And I want to again briefly address your previous question 
concerning dialogue. We have been having dialogue with Vietnam 
for the past 38 years. And in the last several years our 
dialogue with Vietnam has not been followed up with action, and 
Vietnam, they recognize that. They recognize that when we 
approach them and talk to them about human rights, about 
religious freedom, they are simply empty words. Because why, 
because no actions have been taken by the U.S. Government to 
challenge Vietnam on their violations of human rights and 
religious freedom.
    Ms. Bass. Thank you.
    Mr. Cao. And therefore I would ask the Congress to take 
actions now to back up our dialogue with action to show Vietnam 
that these are no longer empty words.
    Ms. Bass. Thank you. I appreciate that.
    Ms. Danh, and please forgive me if I am mispronouncing your 
names. But I think you were saying something about that the 
State Department was helpful at some point in the release of 
your sister, and if that is the case, if that is what you said, 
what did they do?
    Ms. Danh. That was thanks to the intervention of 
Congressman Al Green, who is a representative in Houston, and 
because of that the U.S. State Department has passed 
information about the victims to the Russian police.
    Ms. Bass. I see. So he did a phone call or a letter or 
something?
    Ms. Danh. Yes.
    Ms. Bass. And so was that when you said that the Russians 
were tipped off? I remembered you described an incident where 
they were tipped off so that the woman who was in charge of the 
brothel was able to----
    Ms. Danh. That is right. Just before the Russian police 
undertook the raid, the Vietnamese Embassy, someone there 
called Ms. Thuy An, that is the brothel's owner, to tip her 
off. And she moved all the victims immediately and therefore 
when the Russian police made the raid there was no one left in 
the apartment.
    Ms. Bass. Okay, thank you very much.
    Mr. Meadows. Thank you, Mr. Chairman, and thank each of you 
for your testimony today. Congressman Cao, thank you for coming 
in, and I have a couple of questions for you. Given that you 
were talking about the backsliding of Vietnam and the 
government, and yet here they are trying to be recognized by 
the international community for their improvements in human 
rights. Can you explain, I guess, the repression that we are 
seeing, but yet where they are going with this in trying to be 
recognized from an international standpoint?
    Mr. Cao. Congressman, again I do not understand the irony 
in all of this. I simply, at least this is a personal opinion 
of mine, I simply believe that their actions, at least the 
actions that they are taking, are simply steps for them to 
sidetrack the fact that their record say very clearly that they 
have been backsliding in the past several years since 2007. And 
again, the actions taken by the Vietnamese Government is 
another explicit message that at least the words that are 
uttered by us and by other international communities, when they 
are not followed by actions, are simply empty words, and 
therefore the actions that they have taken clearly shows that 
they do not take our words into much consideration whatsoever.
    Mr. Meadows. So your compelling message today would be that 
if we are going to make a statement we need to have teeth and 
action behind that statement, not just simply rhetoric that 
plays well in the media.
    Mr. Cao. That is absolutely correct. Historically, at least 
in the past 4 or 5 years, at least the administration has 
spoken of Vietnam human rights violations, but at the same time 
they are sitting down with Vietnam at the table talking about 
the TPP, talking about GSP, talking about other economic and 
other benefits. When we send a mixed message like that it is 
extremely difficult not only for us as a government but for 
other organizations such as Boat People SOS to make a push to 
Vietnam to make those changes that are required before they get 
the benefits of GSP, before they get the benefits of TPP.
    Mr. Meadows. Okay. And the chairman in this very room, just 
a couple of days ago we had a hearing that highlighted some of 
the human rights violations with regards to China. And part of 
that testimony talked about the fact that what we needed to do 
is not have a human rights dialogue that is separate than some 
of the other dialogue that is going on whether it be military, 
whether it be economic, whether it be other trade, that it 
needs to be all-inclusive. Would you agree that that would be 
the most pragmatic approach and most meaningful approach with 
regards to Vietnam?
    Mr. Cao. I absolutely agree. Because when we look at the 
history of our country, this great nation was founded on the 
principles of religious freedom, on the principles of the 
freedom of expression and individual rights. And if we were to 
neglect those principles that make our country great, in 
dealing with other countries, then we ourselves are acting in a 
hypocrisy. We ourselves are acting in a way that encourages 
other countries to be involved in wrongdoings. So I absolutely 
agree with Chairman Smith that when we speak with Vietnam on 
the issues of economic trade, on the issues of military 
exercises that we must demand that they improve their human 
rights and religious freedom records.
    Mr. Meadows. And so having been a Member of Congress, and 
having the power to vote and knowing that TPP is coming up and 
that dialogue is real today, would it be your recommendation to 
other Members of Congress, of a body that you have been a 
Member of, to encourage them not to ratify that unless this 
human rights violation is not only addressed but addressed in a 
real and meaningful way?
    Mr. Cao. That is absolutely correct. I highly recommend 
that the U.S. Congress would not ratify Vietnam's entrance into 
TPP, would not ratify any actions taken by the administration 
to grant Vietnam GSP until some of these issues are concretely 
corrected by the Vietnamese Government.
    Mr. Meadows. Okay, and let me follow up on that because I 
believe in your testimony you encouraged Congress to pass human 
rights legislation specifically with regards to Vietnam. Is the 
Government of Vietnam sensitive to the actions we would take 
here in Congress with respect to human rights or is it do they 
kind of just not pay attention?
    Mr. Cao. Of course the Vietnamese Government, like other 
authoritarian regimes, they recognize the acts of Congress, and 
over the past years, even though we have passed the Vietnam 
Human Rights Act through the House but eventually it got stuck 
in the Senate, the passage of the Vietnam Human Rights Act 
through the House speaks very loudly of where we are as a 
government. That we are willing to challenge the Vietnamese 
Government on their human rights records, on their religious 
freedom records.
    But I believe that this is the right time for us to take 
further steps to not only pass the Vietnam Human Rights Act and 
the Vietnam Sanctions Act through the House, but to make a 
concerted effort to get it through the Senate and get them 
signed by the President. And if you were to look at the 
explicit language of those two acts, the language allows the 
President after he signs those acts into law to provide waivers 
when he deems fit. So it is not, these acts are not somehow 
bound the President in any way, but at least when necessary it 
give the President teeth to force Vietnam to make these 
changes.
    So again I urge the U.S. Congress to present the Vietnam 
Human Rights Act, to present the Vietnam Sanctions Act, to pass 
it through the House, to pass it through to the President, to 
pass it through the Senate, and to get the President to sign 
these two acts into law.
    Mr. Meadows. And one last follow-up, Mr. Chairman, if I 
may. If with the tier ranking that has been changed by the 
State Department, obviously to show improved status with 
regards to human rights, do you think that that sends 
conflicting messages in terms of where we are as a nation? And 
not to condemn the State Department, I know they are well 
meaning, but does it send the wrong message?
    Mr. Cao. Again, I absolutely agree with you that when we 
utter phrases, when we utter words challenging Vietnam on human 
rights but at the same time move them out of the list of 
Countries of Particular Concern, again we are sending Vietnam 
mixed messages that what we are saying are simply empty words. 
And they fully recognize that. And I again urge the U.S. 
Government to put Vietnam back on the list of Countries of 
Particular Concern to make sure that Vietnam knows that our 
words are no longer empty words and that we are now willing to 
take action to demand changes in Vietnam.
    Mr. Meadows. Okay. Ms. Danh, thank you for your testimony. 
It touches my heart. My daughter Haley who is 19 years old 
brought the human trafficking dilemma, horrific actions across 
this nation, to my attention 3 or 4 years ago. You today have 
brought it home when you said that these victims, look at them 
as your own daughters. And that is what we must do as a people. 
We must not look at it as some horrific tragedy, an action that 
is taking place far, far away. We must look at it as if it were 
our own daughters. And so I thank you for sharing your story.
    I want to go on a little, but ask you specifically with 
regards to this action, would you see with the State Department 
changing this tier ranking and the complicity that we have seen 
with regards to Vietnam Government, do you think that that is 
creating an environment where the international community is 
saying we will turn a blind eye to these awful sex trafficking, 
human trafficking efforts?
    Ms. Danh. Yes, the U.S. Government should put more pressure 
on the Vietnamese Government so that they will truly protect 
the victims. And I would like to point out in these pictures 
here they are not just teenagers, but that is one of them who 
is 16. And this is a 16-year-old minor among the victims, and 
the other are 19 to 20 or 21 years old.
    Mr. Meadows. And my last question, do you think your 
sister's story and the story of these 15 people is truly a 
unique story, or would you say that there are many other 
Vietnamese women who are being victimized even now?
    Ms. Danh. It is not just my sister. It is not just these 
15. There are a lot of other young Vietnamese women in the same 
situation in Russia.
    Mr. Meadows. Well, I thank each one of you for your 
testimony. I have to speak on the House floor in just a few 
minutes and so my leaving is not an indication of anything 
other than a great desire to say thank you for being here 
today. And with that I yield back to the chairman.
    Mr. Smith. Thank you very much for your robust 
participation and your deep and abiding concern for human 
rights in Vietnam.
    Is there anything our distinguished witnesses would like to 
say before we close? Yes, Mr. Ai?
    Mr. Ai. I would like to have the last word. So I hope so 
much that the Congress will adopt the Vietnam Human Rights 
acts, because I have the feeling that the United States support 
human rights already for 3 million Communist Party but not for 
87 million Vietnamese people, and I hope so much that you can 
work in order to redesignate Vietnam on the CPC. Thank you, Mr. 
Chairman.
    Mr. Smith. Mr. Sifton?
    Mr. Sifton. I would just add that on the issue of this 
dialogue being useful or not it might be important to add one 
word of elucidation. I think it wouldn't be correct to assume 
that the U.S. Government doesn't raise human rights issues 
outside of this dialogue. I think they do, and I think 
Ambassador David Shear does do that quite a bit and he 
encourages the U.S. Trade Representative to do it. I know the 
Pentagon does it in the context of the conversations they have. 
The question is do they do it enough, and what should they do 
if Vietnam doesn't improve? And I think that is the big 
question that we still haven't settled. It is a very difficult 
question, the effort to convince and pressure and inveigh and 
dialogue with the Government of Vietnam involves some really 
complex dynamics.
    So all I would say the only glimmer of hope, I think, is 
the party doesn't want to relinquish power but nor does it want 
to lose power and be swept aside. And they are worried about 
wild cat strikes and land uprisings and their international 
standards and their economic situation especially given last 
year. And so there are things they may want to do, but those 
are decisions they need to make, the Government of Vietnam. 
They can be pressured, they can be convinced, they can be 
inveighed, they can be tricked even perhaps, but it is not just 
simply a matter of bashing them over the head. But I think 
there are some opportunities there.
    And then as last on the Human Rights Council, it goes 
without saying that the State Department and the White House 
will oppose Vietnam as a member of HRC. What I really think 
might be useful would be for Members of Congress to pressure 
the State Department not just to do that but to really rally 
the rest of the Council. Argentina, Brazil, India, The 
Philippines, Indonesia, Malaysia, all the other members who 
would sort of be on the fence to say you guys have got to stand 
up with us as well. That is a very important----
    Mr. Smith. Thank you so much, Mr. Sifton.
    Mr. Tran?
    Mr. Tran. I would like to add one point relating to the 
relationship, the close relationship between the police and the 
thugs. Recently at Con Dau Parish just last December, there was 
a case of a family of they refused to sign the paperwork to 
relocate, so they dug in. And then the police surrounded the 
village, blocked the village letting no one leave, and they 
escorted the thugs in. And they surrounded the house while the 
thugs broke into the house and beat up the couple, and the wife 
pass out. And that shows that there is a close relationship 
between the police and the thugs. Out of fear they just fled to 
Thailand to seek refuge protection but they are still without 
status. Oh, and the Vietnamese authorities even threatened that 
if they got caught and recaptured they would be eliminated.
    Mr. Smith. Yes?
    Ms. Buonya. I do have one last thing to add. In your 
continued dialogue with Vietnam I just wanted you to, I guess, 
remind the Communist government that yes, everything is similar 
in terms of religious persecution between the Vietnamese and 
the indigenous people, but I feel like when it comes to the 
Montagnards, the Hmong, the Khmer Krom, the Cham it is even 
worse. And one reason is because of the allying with the U.S. 
Government during the Vietnam War, and also because they were 
already suppressed populations. And on top of being persecuted 
for their religion and because of their ethnicity, there is 
also lots of, I guess you could say, problems with land 
confiscation, so now they are losing their homeland. And just 
to keep that in mind with your dialogue that you are all here 
in unity, but at the same time the indigenous people face a 
little bit different situation than the majority of the 
Vietnamese do.
    Mr. Smith. And just for clarification, the forced 
renunciations of faith----
    Ms. Buonya. Right.
    Mr. Smith [continuing]. They continue?
    Ms. Buonya. They do still continue, yes.
    Mr. Smith. Are they widespread?
    Ms. Buonya. From what I have heard they are widespread. 
Like I said, two regions that I mentioned earlier, Pleiku and 
Buon Ma Thuot were one of the major ones because there, there 
is constant police surveillance. So it is like the people, they 
are scared to do anything. They are just being watched all the 
time.
    Mr. Smith. Because one of the preconditions for removal 
from CPC some years back was the Ambassador-at-Large had what 
he thought were deliverables as he described it, and one of 
them was to completely end the forced renunciations of faith. 
CPC was eliminated for Vietnam and yet the forced renunciations 
and other repression against all other faiths continue as well.
    Ms. Buonya. Still continue.
    Mr. Smith. Okay, thank you. Anybody else? I want to thank 
you for your testimony, your very, very timely and very 
comprehensive recommendations to the subcommittee, for your 
valued efforts on behalf of human rights, and for those who 
have suffered personally, thank you for your willingness to 
share that with us. It will mobilize and not just inform, but 
mobilize this committee to do even more. So thank you very 
much. The hearing is adjourned.
    [Whereupon, at 12:17 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 <F-dash>\<diamond><brit-pound><pound><Rx><variable>a<ellipse><ellipse>
                   <n-iden-3><star><pound>t<pound>s\

  Material submitted for the record by Ms. Anna Buonya, spokesperson, 
                  Montagnard Human Rights Organization

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


     <F-dash>\<Hoarfrost><acctof><careof>t<star><ellipse><ellipse>
                     <F-dash><func.-of><Register>\

   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
